 ~ SERVIC£S.




(Æ.
y~,+,~~
                                          DEPARTMENT OF HEALTH AND HUMAN SERVICES
                                                                 OFFICE OF AUDIT SERVICES
                                                                233 NORTH MICHIGAN AVENUE
                                                                  CHICAGO, ILLINOIS 60601
                                                                                                                            REGION V

                                                                                                                            OFFICE OF

                                                                                                                     INSPECTOR GENERAL


                                                                      September 18, 2008


        Report Number: A-05-08-00058

        Mr. Cal Ludeman
        Commissioner
        Department of Human Services
        540 Cedar Street
        St. Paul, Minnesota 55155

        Dear Mr. Ludeman:

        Enclosed is the U.S. Department of 
 Health and Human Services (HHS), Office ofInspector
        General (OIG), final report entitled "Review of Minnesota's Drug Rebate Accounts Receivable
        Balance Reported on the Form CMS-64." We wil forward a copy of 

                                                                                                   this report to the HHS
        action official noted on the following page for review and any action deemed necessary.

        The HHS action offcial will make final determination as to actions taken on all matters reported.
        We request that you respond to this official within 30 days from the date of this letter. Your
        response should present any comments or additional information that you believe may have a
        bearing on the final determination.

                                      the Freedom ofInformation Act, 5 U.S.C. § 552, as amended by
        Pursuant to the principles of 


        Public Law 104-231, OIG reports generally are made available to the public to the extent the
        information is not subject to exemptions in the Act (45 CFR par 5). Accordingly, this report
        will be posted on the Internet at http://oig.hhs.gov.

        If you have any questions or comments about this report, please do not hesitate to call me, or
        contact Lynn Barker, Audit Manager, at (317) 226-7833 extension 21 or through e-mail at
        Lynn.Barker(0oig.hhs.gov. Please refer to report number A-05-08-00058 in all correspondence.




                                                                           '" /'
                                                                           Sincerely,



                                                                           ~~~n
                                                                           Regional Inspector General
                                                                            for Audit Services


       Enclosure
Page 2 - Mr. Cal Ludeman


cc:
Ms. Christine Bronson, Medicaid Director
Department of Human Services
540 Cedar Street
St. Paul, Minnesota 55155

Mr. David Ehrhardt, Internal Audit Director
Department of Human Services
444 Lafayette Road
St. Paul, Minnesota 55155
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





REVIEW OF MINNESOTA'S DRUG

REBATE ACCOUNTS RECEIVABLE

  BALNCE REPORTED ON THE

                FORM CMS-64





           ~, SERV1CCS


                         Daniel R. Levinson

       (/'-l
       "'1-
        -YI¡
             -:

         "'1I¡;d3a
                          Inspector General

                          September 2008

                           A-05-08-00058
                             Offce of Inspector General

                                                      http:// oig.hhs.gov





               the Office ofInspector General (OIG), as mandated by Public Law 95-452, as
The mission of 


amended, is to protect the integrity ofthe Department of 
 Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Offce of Audit Services

The Office of Audit Services (OAS) provides auditing services for llS, either by conducting

audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carring out their
respective responsibilties and are intended to provide independent assessments ofllS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and effciency throughout llS.



Offce of Evaluation and Inspections
The Offce of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of deparental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Offce of Investigations
The Office of Investigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilzes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 
 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general 
legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving llS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industr
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                       at http://oiQ.hhs.QOV



Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the
Social Security Act. For a manufacturer’s covered outpatient drugs to be eligible for Federal
Medicaid funding under the program, the manufacturer must enter into a rebate agreement with
the Centers for Medicare & Medicaid Services (CMS) and pay quarterly rebates to the States.
CMS, the States, and drug manufacturers each undertake certain functions in connection with the
drug rebate program. In Minnesota, the Department of Human Services (the State agency)
administers the Medicaid drug rebate program.

The Medicaid program requires States to present a complete, accurate, and full disclosure of all
pending drug rebates and collections, including interest. States report drug rebate accounts
receivable data on Form CMS-64.9R. The Form CMS-64.9R is part of Form CMS-64,
“Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program,” which
summarizes actual Medicaid expenditures for each quarter and is used by CMS to reimburse
States for the Federal share of Medicaid expenditures.

Federal regulations (42 CFR § 433.32) require State agencies to maintain an accounting system
and supporting fiscal records to assure that claims for Federal funds comply with applicable
Federal requirements. Without routine reconciliations, the State agency does not have
reasonable assurance that drug rebate information reported to CMS is accurate.

OBJECTIVE

Our objective was to determine whether the State agency accurately reported the accounts
receivable balances for drug rebates on the Form CMS-64.9R.

SUMMARY OF FINDINGS

The State agency did not accurately report the accounts receivable balance for drug rebates on
the Form CMS-64.9R. The State agency did not accurately report required adjustments, current
billings and collections of interest on the Form CMS-64.9R and implement procedures to ensure
reported accounts receivable balances were reconciled to and supported by accounting records.
As a result, the State agency understated the reported accounts receivable balance by
approximately $31.4 million and reported a credit balance of $10.2 million on the CMS-64.9R as
of June 30, 2006.




                                                i
RECOMMENDATIONS

We recommend the State agency:

   •	 correct the outstanding accounts receivable balance reported to CMS and

   •	 implement procedures to ensure that the accounts receivable balance for drug rebates
      reported on the Form CMS-64.9R is reconciled to and supported by accounting records.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency provided information on steps it had taken
to implement the recommendations. The State agency’s comments are included in their entirety
as the Appendix.




                                                ii
                                                   TABLE OF CONTENTS 


                                                                                                                              Page

INTRODUCTION............................................................................................................1 


     BACKGROUND .........................................................................................................1 

       Drug Rebate Program ............................................................................................1 

       Federal Requirements for Reporting Drug Rebate Accounts Receivables............1 

       Minnesota Drug Rebate Program...........................................................................2 


     OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................2 

       Objective ................................................................................................................2 

       Scope......................................................................................................................2 

       Methodology ..........................................................................................................2 


FINDING AND RECOMMENDATIONS.................................................................... 3 


     ACCOUNTS RECEIVABLE BALANCE ..................................................................3 

       Federal Requirements ............................................................................................3 

       Reconciliation of Reported Accounts Receivables to Supporting Records...........3 


     RECOMMENDATIONS............................................................................................ 4                      


     STATE AGENCY COMMENTS............................................................................... 4 


APPENDIX

     STATE AGENCY COMMENTS




                                                                      iii
                                       INTRODUCTION 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Drug Rebate Program

The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the Act.
For a manufacturer’s covered outpatient drugs to be eligible for Federal Medicaid funding under
the program, the manufacturer must enter into a rebate agreement with CMS and pay quarterly
rebates to the States. CMS, the States, and drug manufacturers each undertake certain functions
in connection with the drug rebate program.

Pursuant to section II of the rebate agreement and section 1927(b) of the Act, manufacturers are
required to submit a list to CMS of all covered outpatient drugs and to report each drug’s average
manufacturer price and, where applicable, best price. Based on this information, CMS calculates
a unit rebate amount for each covered outpatient drug and provides the amounts to States
quarterly.

Section 1927(b)(2)(A) of the Act requires States to maintain drug utilization data that identifies,
by National Drug Code (NDC), the number of units of each covered outpatient drug for which
the States reimbursed providers. The number of units is applied to the unit rebate amount to
determine the actual rebate amount due from each manufacturer. Section 1927(b)(2) of the Act
requires States to provide the drug utilization data to CMS and the manufacturer.

Federal Requirements for Reporting Drug Rebate Accounts Receivables

The Medicaid program requires States to present a complete, accurate, and full disclosure of all
pending drug rebates and collections, including interest. States report drug rebate accounts
receivable data on Form CMS-64.9R. The Form CMS-64.9R is part of Form CMS-64,
“Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program,” which
summarizes actual Medicaid expenditures for each quarter and is used by CMS to reimburse
States for the Federal share of Medicaid expenditures.

Federal regulations (42 CFR § 433.32) require State agencies to maintain an accounting system
and supporting fiscal records to assure that claims for Federal funds comply with applicable
Federal requirements. Without routine reconciliations, the State agency does not have
reasonable assurance that drug rebate information reported to CMS is accurate.




                                                 1

Minnesota Drug Rebate Program

In Minnesota, the Department of Human Services (the State agency) is responsible for the drug
rebate program. For the fiscal year ended June 30, 2006, the State agency reported rebate
billings of approximately $123.1 million and collections of $139.5 million.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency accurately reported the accounts
receivable balances for drug rebates on the Form CMS-64.9R.

Scope

We reviewed the State agency’s current policies, procedures, and controls over the drug rebate
program and the reporting of accounts receivable data on Form CMS-64.9R as of June 30, 2006.

We performed our fieldwork at the State agency in St. Paul, Minnesota, from October 2007
through June 2008.

Methodology

To accomplish our objective, we

   •	 reviewed section 1927 of the Act and CMS guidance issued to State Medicaid directors
      and other information pertaining to the Medicaid drug rebate program;

   •	 reviewed the State agency policies and procedures related to the drug rebate accounts
      receivable system;

   •	 interviewed State agency officials to determine the policies, procedures, and controls
      related to the Medicaid drug rebate program; and

   •	 reconciled the Form CMS-64.9R to the State agency accounting records for the four
      quarters ended June 30, 2006.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                               2

                               FINDING AND RECOMMENDATIONS 


The State agency did not accurately report the accounts receivable balance for drug rebates on
the Form CMS-64.9R. The State agency did not accurately report required adjustments, current
billings and collections of interest on the Form CMS-64.9R and implement procedures to ensure
reported accounts receivable balances were reconciled to and supported by accounting records.
As a result, the State agency understated the reported accounts receivable balance by
approximately $31.4 million and reported a credit balance of $10.2 million on the CMS-64.9R as
of June 30, 2006.

ACCOUNTS RECEIVABLE BALANCE

The State agency did not accurately report the accounts receivable balance for drug rebates on
the Form CMS-64.9R.

Federal Requirements

Pursuant to 42 CFR § 433.32(a), State agencies are required to maintain an accounting system
and supporting fiscal records to assure that claims for Federal funds comply with applicable
Federal requirements. Section (V)(b) of the rebate agreement between CMS and manufacturers
requires manufacturers to pay interest on late rebate payments, and CMS program release 29
requires interest to be collected.1

Reconciliation of Reported Accounts Receivables to Supporting Records

As of June 30, 2006, the State agency reported the accounts receivable balance for drug rebates
on the Form CMS-64.9R as a credit (negative) $10.2 million while the accounting records
indicated the balance was $21.2 million.

                             Table: Accounts Receivable (A/R) Balances
                     A/R             A/R            A/R             A/R
                 Balance for       Balance        Balance         Balance       A/R Balance        Total A/R
                  6/30/2006       3/31/2006      12/31/2005      9/30/2005      over 1 year         Balance
                   Quarter         Quarter        Quarter         Quarter
State Agency
Accounting       $16,951,897      $3,531,553      $(735,098)     $(146,111)       $1,551,396       $21,153,637
Records
Reported on
Form CMS-        $16,951,897      $3,531,552      $(714,978)     $(140,468) $(29,838,993) $(10,210,990)
64.9R
Difference                   -             $1      $(20,120)        $(5,643)     $31,390,389       $31,364,627

The differences for the accounts receivable quarterly balances, the balance over 1 year and the
total balance occurred because required adjustments, interest, and current billings were not

1
 CMS issued drug rebate program guidance to State Medicaid directors and posted the program releases on its Web
site at http://www.cms.hhs.gov/MedicaidDrugRebateProgram/02_StateReleases.asp. Accessed March 19, 2008.


                                                       3
accurately reported on the Form CMS-64.9R. Additionally, the State agency did not implement
procedures to ensure accounts receivable balances for rebates reported on the Form CMS-64.9R
were reconciled to and supported by accounting records. Consequently, the State agency
understated the accounts receivable balance by approximately $31.4 million and reported a credit
balance of $10.2 million as of June 30, 2006.

RECOMMENDATIONS

We recommend the State agency:

   •	 correct the outstanding accounts receivable balance reported to CMS and

   •	 implement procedures to ensure that the accounts receivable balance for drug rebates
      reported on the Form CMS-64.9R is reconciled to and supported by accounting records.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency provided information on steps it had taken
to implement our recommendations. The State agency’s comments are included in their entirety
as the Appendix.




                                               4

APPENDIX 

                                                                                                                         APPENDIX
                                                                                                                          Page 1 of2


Minnesota Department of Human Services


September 10,2008



Marc Gustafson
Regional Inspector General
    for Audit Services
Depi1rtment of 
 Health anp Human Services
Office of the Inspector General for Audit Services
233 North Michigan Avenue, Suite 1360
Chicago, Ilinois 60601

RE: Review of State of Minnesota's Accounts Receivable Balance Reported on the Fom1 CMS-64
      for the State Fiscal Year ending June 30, 2006

           Audit Report Number A-05-08-00058

Deåt Mr: Gustafs6n:"
,,'

Thank. yòu forfhe opportnity to review änd comment on your report covering our reporting of drug
rebateac,counts receivable bàlarices on the CMS-64 form for the' state fiscal year ending June 30, 2006.
                                                                           the Inspector General's final
It is our understanding that our response wil be published in the Offce of 


audit report. We appreciated the effort of your staff in keeping the department informed of their
progress during the audit. The report contained the following recommendations

Recommendation #1: Correct the outstanding accounts receivable balance reported to CMS.

Response: The state worked with the local CMS offcial to make Line 2 adjustments to the Drug Rebate
Schedule so the CMS-64.9R accounts receivable balance reconciles to the states accounting records.
These adjustments were made to the CMS-64 Report for the quarter ending 9/30/07.

Recommendation #2: Implement procedures to ensure that the accounts receivable balance for drug
rebates reported on the Form CMS-64.9R is reconciled to and supported by accounting records.

Response:' In October of                                              ensure that fut,ure accounts
                                      2007, the state added an additional contròl to

recèivable' balances reported on the CMS-64 reconciled to state accounting reCords: 'Specifically: the
program accountant responsible for entering data into the CMS-64.9R page now sends the Drug Rebate
Coordimi.tûr a 'copy of the CMS-64.9R page for verification and concurrence prior to submission to
CMS.




                 PO Box 64998 . St, Paul. MN. 55164-0998 . An Equal Opportunity Employer and veteran-friendly employer
                                                                                               APPENDIX

                                                                                                Page 2 of2

Marc Gustafson
Page 2 .

September 10, 2008




ifyou have any furter questions, please contact David Ehrhardt, Internal Audit Director, at


(651) 4313619.


Sincerely,

    G£~. ;C~
. Cal R. Ludeman
 Commissioner

cc: Lynn Barker, HHS OIG




                      PO Box 64998. St. Paul, MN. 55164-0998. An Equal Opportunity Employer
